Platinum Rewards Visa Terms and Conditions
Important Information on Rates, Fees and Other Costs
 E ective 01-17-2018

Interest Rates and Interest
Charges
Variable Annual
Percentage Rate (APR) for
Purchases, Balance
Transfers and Cash
Advances
Non-Variable Annual
Percentage Rate (APR) for
Purchases, Balance
Transfers and Cash
Advances

Alert Me

11.75% to18.00%
when you open your account.

13.25% to18.00%
when you open your account.

Variable Rate Information

Your annual percentage rate (APR) may vary monthly.
Your rate will be based on the U.S. (Fed) Prime Rate as of
the last day of the preceding month. Rates will be
determined on the 5th of each month.

Minimum Monthly
Payment

2% of the outstanding balance or $40, whichever is
greater.

How to Avoid Paying
Interest on Purchases

Your due date is at least 25 days after the close of each
billing cycle. We will not charge you interest on purchases
if you pay your entire balance by the due date each
month.

For Credit Card Tips from
the Consumer Financial
Protection Bureau

To learn more about factors to consider when applying
for or using a credit card, visit the website of the
Consumer Financial Protection Bureau.

Fees

Alert Me

Annual Fee

$0

Transaction Fees

• Balance Transfer: $0

• Cash Advance: $0
• Foreign Transaction: Visa International Service
Assessment Fee
• Single Currency Transaction: 0.8% of transaction
• Multiple Currency Transaction: 1.0% of transaction

Penalty Fees

• Late Payment: $25 for the rst violation, $30 for the
next violation(s) during the next 6 billing cycles
• Overlimit: $0
• Return Payment: $0

Balance Computation
Method

Average daily balance including new purchases.

Finance Charge

Calculated using monthly periodic data.

Advertised rates include a 0.25% discount for automatic payments. Without Autopay, your APR will be 0.25%
higher.

